V

{*:

1

s
AC

No.

Supreme Court, U.S.
FILED

JUL 2 3 2221-

IN THE
SUPREME

COURT

OFFICE OF THEC

0P THE UHlTEt> 51(\T.ES

CttARLES NfeNDN

PETITIONER
VS

ittE UNITED STftTES L00R1 OF PtPPfeftLS
PM TME FOURTH QROiFT

PETITION FDR LERVE
TO PROCEED m FQRnR PAOPEFAS

Petitioner asks 5or leaue "to tile, “ll/ie, attached
petition f©r supe/iruls'Dirc} inter o cut to in; aMointvutMt of
CsaiASel ^ and exteiAsioi/) uutVuut pee.|>aAfMenY c& costs
and Yd iprpceea \w forwia pauperis *
Petitioner ha5 previouslu keen g,rei/itedl \eaue
to proceed in focm£l bau^erts m the United States
Court of Appeals For Tke Foufll/i CiVcu/t q\$\ FeWuaot/ Hk
1.01 ^ and tiA the Diluted States District Court, Distort
of SeirtVl Cajrolit/\o tlrca September 1^20)1 L data
senuce el pfacesi ordered "fcr UaWaS ( corpus ^ ,
PctitioiAeir’s aflvdauit or Aectaration in support £><?
this moVibin is nottaltocVied ketauje the eoiurt hel Q"LO
afiffiou/iTed counsel m the current proceediVaj. R eotpU,
oF ike ardeir of appoiutuvifiM is appended.

RECEIVED
AUG - 4 2021
SUPREEMEFCQURT;L^qK

ftJimHu' */ l/cudA^jy^
Charles Kf VauclntJ»
Pe&tUiaer

!

USCA4 Appeal: 18-6916

Doc: 21

Filed: 03/12/2019

Pg: 1 of 2

FILED: March 12,2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 18-6916
(l:17-cv-02484-RMG)

CHARLES NEMON VANDROSS
Petitioner - Appellant
v.

BRYAN STIRLING, Commissioner, South Carolina Department of Corrections,
and Broad River Correctional Institution
Respondent - Appellee

ORDER
The court appoints Elizabeth Anne Franklin-Best to represent Charles
Nemon Vandross. Counsel is referred to the CJA Payment Memorandum and the
CJA eVoucher Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case

APPENbiX

USCA4 Appeal: 18-6916

Doc: 21

Filed: 03/12/2019

Pg:2of2

in order to submit the AUTH-24 request for district judge approval and the CJA 24
voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
All case filings must be made using the court's Electronic Case Filing system
(CM/ECF). Counsel not yet registered for electronic filing should proceed to the
court's web site to register as an ECF filer. See Required Steps for Registration as
an ECF Filer. All filings must comply with this Court’s Memorandum on Sealed
and Confidential Materials. Counsel shall file an Appearance of Counsel form
within 14 days of the date of this order.
For the Court—By Direction
/s/ Patricia S. Connor, Clerk

USCA4 Appeal: 18-6916

Doc: 20

Filed: 03/11/2019

Pg: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

MOTION FOR THE APPOINTMENT OF COUNSEL
Charles Nemon Vandross v. Bryan Stirling
On Appeal from the District of South Carolina, Greenwood Division
Appellate Case No. 18-6916
Undersigned counsel respectfully asks this Court to appoint her to represent
Petitioner. Counsel and co-counsel, E. Charles Grose, have been representing Petitioner
pro bono during these habeas proceedings. On February 11, 2019 this Court granted a
partial certificate of appealability. The Joint Appendix and Opening Brief are currently
due March 25, 2019. For purposes of assisting with the costs of these filings, counsel
respectfully asks this Court to appoint or assign her as counsel. This Court previously
accepted Petitioner's application to proceed in forma pauperis on February 4, 2019.
Respectfully submitted,
is! Elizabeth Franklin-Best
Blume Franklin-Best & Young, LLC
900 Elmwood Avenue, Suite 200
Columbia, South Carolina 29201
(803) 765-1044
betsy@blumelaw.com
Fed ID #9969
March 11, 2019
CERTIFICATE OF SERVICE
I hereby certify I served the South Carolina Attorney General's Office on this
date by filing via ECF.
Respectfully submitted,
is! Elizabeth Franklin-Best
Blume Franklin-Best & Young, LLC
900 Elmwood Avenue, Suite 200
Columbia, South Carolina 29201
(803) 765-1044
betsy@blumelaw.com
Fed ID #9969

